Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services 
Grants to the Bloomington, Indiana Police Department
GR-50-02-002
February 2002
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Bloomington, Indiana Police Department (Bloomington PD).  The purpose of the grants is to enhance community policing.  The Bloomington PD was awarded a total of $951,483 to hire 12 new police officers to perform community policing and to redeploy the equivalent of 0.80 existing full-time police officers from administrative duties to community policing.

We reviewed the Bloomington PD's compliance with seven essential grant conditions and determined that the grantee was generally in compliance with the grant conditions.  However, we identified errors and omissions in the grant accounting records and reports and recommend $7,425 be put to better use. 1   Specifically:

Grant accounting records and reports did not accurately reflect actual program-related expenditures or the local share of these costs.

	The Bloomington PD was unable to utilize $7,425 in redeployment grant funds awarded for the purchase of computer software; therefore, these funds should be deobligated and put to better use. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.






Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for the definition of funds to better use.